Capital Case
Execution Scheduled Dec. 10, 2020
No. ___________
IN THE SUPREME COURT OF THE UNITED STATES
BRANDON BERNARD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
EMERGENCY APPLICATION FOR A STAY OF EXECUTION
[Execution Scheduled for Dec. 10, 2020 at 6:00 p.m. EST]
TO THE HONORABLE SAMUEL A. ALITO, JR., ASSOCIATE JUSTICE OF THE UNITED
STATES AND CIRCUIT JUSTICE FOR THE FIFTH CIRCUIT:
Petitioner Brandon Bernard was sentenced to death for his role at age 18 as
an accomplice to a gang-related carjacking that ended in a double murder. As detailed
in his Petition for Writ of Certiorari, after unsuccessfully litigating an initial
collateral attack under 28 U.S.C. § 2255, Mr. Bernard discovered that at the time of
his trial, the government was in possession of favorable information relevant to his
sentence, but not to his guilt of the underlying offenses. The government never

1

disclosed that information to Mr. Bernard’s trial attorneys, either prior to trial or
during the initial § 2255 proceeding.
Armed with this new information, Mr. Bernard filed a second § 2255 motion,
arguing that the reasoning of this Court’s decision in Panetti v. Quarterman, 551 U.S.
930 (2007), should entitle him to obtain review of the merits of his penalty-phase
claims under Brady v. Maryland, 373 U.S. 83 (1963), and Napue v. Illinois, 360 U.S.
264 (1959), without satisfying the gatekeeping requirements of 28 U.S.C. § 2255(h).
The district court described Mr. Bernard’s Panetti-based procedural argument as
“compelling,” but concluded that Fifth Circuit precedent foreclosed it. The Court of
Appeals affirmed that view. Thus, to date Mr. Bernard’s penalty-phase Brady and
Napue claims have received no judicial review whatsoever. As a consequence, if the
decision of the court below stands, Petitioner will be executed under a judgment
obtained in “a proceeding that d[id] not comport with standards of justice[.]” Brady,
373 U.S. at 88.
Mr. Bernard respectfully asks the Court to stay his execution, presently set for
Thursday, December 10, 2020, at 6:00 p.m. Eastern time, pending its disposition of
his petition for writ of certiorari. As set out below, this case satisfies each
consideration relevant to that determination.
A.

STANDARD FOR ISSUING A STAY OF EXECUTION

The standard for granting a stay is well-established. The factors are “(1)
whether the stay applicant has made a strong showing that he is likely to succeed on
the merits; (2) whether the applicant will be irreparably injured absent a stay; (3)

2

whether issuance of the stay will substantially injure the other parties interested in
the proceeding; and (4) where the public interest lies.” Nken v. Holder, 556 U.S. 418,
434 (2009). In the present context, there must be “a reasonable probability that four
members of the Court would consider the underlying issue sufficiently meritorious
for the grant of certiorari” and “a significant possibility of reversal of the lower court’s
decision,” in addition to irreparable harm. Barefoot v. Estelle, 463 U.S. 880, 895 (1983)
(citation omitted).
1.

A reasonable probability exists that the Court will grant
certiorari.

There is a reasonable probability the Court will grant certiorari to review the
judgment of the Fifth Circuit and answer the question presented in this case. First,
a “reasonable probability” is usually understood as describing a likelihood lower than
“more likely than not[.]” Smith v. Cain, 565 U.S. 73, 75 (2012) (discussing “reasonable
probability” of a different outcome in the context of Brady materiality). Thus, to be
entitled to a stay of execution until the Court can review his petition in due course,
Mr. Bernard need not demonstrate a high likelihood that the Court will decide to hear
his case, but only a reasonably good chance of that outcome.
Second, Rule 10(c) identifies, as a relevant consideration in the Court’s exercise
of its certiorari jurisdiction, whether “a United States court of appeals … has decided
an important federal question in a way that conflicts with relevant decisions of this
Court.” The Fifth Circuit’s decision finding Mr. Bernard’s second-in-time § 2255
motion subject to the gatekeeping requirements of 28 U.S.C. § 2255(h) is contrary to
the Court’s decision in Panetti v. Quarterman, 551 U.S. 930 (2007), as another circuit
3

court has explained in a careful and detailed analysis of the issue. See Scott v. United
States, 890 F.3d 1239, 1250-51 (11th Cir. 2018); see also Petition for Writ of Certiorari
at 25–28 (discussing Scott). A number of other judges of the federal courts of appeals
subscribe to Scott’s analysis of how Panetti should apply to Brady claims, including a
strong component of the majority of the full Fourth Circuit in Long v. Hooks, 972 F.3d
442, 487 (4th Cir. 2020) (en banc) (Wynn, Thacker, and Harris, JJ., concurring). Thus,
there exists significant disagreement among federal appellate jurists over how
Panetti should apply to whether Brady claims are successive, when the Brady
violation could not have been known to the defendant at the time of his first § 2255
motion. Given the frequency with which Brady issues arise for prosecutors, that is
sufficient to show a reasonable probability that the Court will grant certiorari to
consider the question. See, e.g., Maryland v. King, 567 U.S. 1301, at *2 (2012)
(Roberts, C.J., in chambers) (finding a “reasonable probability” that certiorari would
later be granted, where lower court’s decision was in conflict with other relevant
decisions of other courts, so as to potentially warrant review, and implicated “an
important feature of day-to-day law enforcement”). In addition, the issue at the heart
of this case is an exceptionally important one: whether, especially in a death penalty
case, the government should be allowed to insulate its Brady violations from ever
having judicial review, simply by the expedient of continuing to hide those violations
until a defendant’s first § 2255 proceeding has concluded (for example, as in this case,
by making misrepresentations to the § 2255 court regarding the true scope of
discovery the prosecution allowed at trial). Finally, as detailed in the Petition, this

4

case presents an exceptionally compelling vehicle for addressing the Question
Presented, given the lack of complicating factors.
2.

If the Court grants certiorari, there is a “fair prospect”
it will reverse the judgment below.

The stay standard requires an applicant to demonstrate a “fair prospect” that
if review is granted, the Court will reverse the judgment under review. King, 567 U.S.
at 1301 (Roberts, C.J., in chambers) (citing Conkright v. Frommert, 556 U.S. 1401,
1402 (2009) (Ginsburg, J., in chambers)). That degree of likelihood has also been
described as a significant or substantial possibility. Phillip Morris USA, Inc., v. Scott,
561 U.S. 1301, 1304 (2010) (Scalia, J., in chambers) (granting stay where it was
“significantly possible that the judgment below will be reversed”); Barnes v. ESystems, Inc., Group Hospital Medical & Surgical Insurance Plan, 501 U.S. 1301,
1303 (1991) (Scalia, J., in chambers) (same, where there was a “substantial
possibility” that the judgment below would fall).
Mr. Bernard has made that showing here. Indeed, it is highly likely that the
Court, if it grants review, will reverse the Fifth Circuit. None of the courts taking the
same view as the Fifth Circuit (including that court itself) have engaged in depth
with the question of how Panetti’s principles should apply in the circumstances of a
Brady claim that the petitioner, due to government misconduct, could not have known
about in time to present it in his initial § 2255 motion. Meanwhile, numerous
appellate judges have concluded after detailed analysis of this Court’s reasoning in
Panetti that a Brady claim should not be deemed successive when government
malfeasance precluded its presentation in an initial § 2255 motion. This inference is
5

especially strong given this Court’s rightful reluctance to interpret § 2255 in a
manner that would mean a petitioner’s “forever losing [his] opportunity for any
federal review . . .” of a particular constitutional claim. 551 U.S. at 945-46. Upholding
the Fifth Circuit would mean that a valid penalty-related Brady claim could never be
reviewed by any court, so long as the government hid the Brady material until the
initial § 2255 proceeding was complete. As numerous judges have recognized,
Congress would not have intended this result; nor would it have intended to
incentivize prosecutors to act in this manner. The Court is likely to conclude the
same, which means there is at least a “fair prospect” it will reverse the Fifth Circuit.
3.

Mr. Bernard will be irreparably injured without a stay.

Mr. Bernard will suffer irreparable injury if his execution goes forward before
the Court can consider and act on his petition for certiorari. See e.g., Wainwright v.
Booker, 473 U.S. 935, 935 n.1 (1985) (Powell, J., concurring in decision to vacate stay
of execution) (“The third requirement – that irreparable harm will result if a stay is
not granted – is necessarily present in capital cases.”); Evans v. Bennett, 440 U.S.
1301, 1306 (1979) (Rehnquist, J.) (granting stay of execution in light of the “obviously
irreversible nature of the death penalty”); Williams v. Chrans, 50 F.3d 1358, 1360
(7th Cir. 1995) (“There can be no doubt that a defendant facing the death penalty at
the hands of the state faces irreparable injury.”).
4.

A stay will not substantially injure the other parties
interested in the proceeding.

This is not a case where a death row prisoner is bringing a last-minute
motion for stay of execution as a tactical step. See Gomez v. U.S. Dist. Court, 503 U.S.
6

653, 654 (1992) (per curiam) (noting that the balancing of the parties’ interests should
include considering whether a stay application is last-minute or otherwise
manipulative of the habeas process). He has pursued this issue diligently. The initial
18 years of delay is not due to any action of his, but the government’s hiding the Brady
material until its use benefitted the government in another proceeding. Mr. Bernard
filed his second-in-time § 2255 motion on February 4, 2019. The government set his
execution date more than a year and a half later, on October 16, 2020, before his case
was even final in the Fifth Circuit. That court denied rehearing en banc on November
6, 2020. Amid the flurry of other work on Mr. Bernard’s behalf, including preparing
his clemency petition and meeting with the Pardon Attorney, he could not, as a
practical matter, have filed this petition sooner.
To be sure, the government’s new urgency to carry out Mr. Bernard’s sentence
may be temporarily forestalled, but only so long as will be necessary to ensure that
the government may carry out the sentence lawfully. Indeed, any exigency in these
proceedings is entirely of the government’s making. For one thing, of course, it was
the government that concealed for nearly twenty years the information necessary for
Mr. Bernard to bring his Brady and Napue claims in the first place. And while the
government had no functional execution protocol when Mr. Bernard’s initial § 2255
proceeding concluded in 2016, that situation came to an end in July 2019 with the
government’s announcement that it had adopted a new protocol and would begin to
schedule executions (which it proceeded to do). Even then, the government waited
more than a year before setting an execution date for Mr. Bernard. At a minimum,

7

then, the Court need not cut short its consideration of Mr. Bernard’s substantial
petition for writ of certiorari simply to accommodate the government’s sudden and
unexplained fit of purported urgency to move ahead with his execution. “[T]he fact
that the government has not – until now – sought to” schedule Mr. Bernard’s
execution “undermines any urgency surrounding” its claimed need to do so. See
Oscorio-Martinez v. Att’y Gen. U.S. of Am., 893 F.3d 153, 179 (3d Cir. 2018).
5.

The public interest favors granting a stay.

The community as a whole will suffer harm if no stay is granted. Allowing
government misconduct to go unremedied will erode the public’s confidence that the
court system offers a level playing field, providing a forum to redress grievous wrongs.
And there is an “overwhelming public interest” in “preventing unconstitutional
executions.” Bronshtein v. Horn, 404 F.3d 700, 708 (3d Cir. 2005) (citation omitted).
A stay of execution, in fact, will serve the strong public interest – an interest the
government shares – in administering capital punishment in a manner consistent
with the Constitution.

8

CONCLUSION
For all the foregoing reasons, the Court should stay Mr. Bernard’s execution
to permit it to review and consider his petition for writ of certiorari in due course.
Respectfully submitted,

*ROBERT C. OWEN
Law Office of Robert C. Owen, LLC
53 W. Jackson Blvd., Ste. 1056
Chicago, Illinois 60604
Phone: 512.577.8329
Email: robowenlaw@gmail.com
*Lead Counsel

JOHN R. CARPENTER
Assistant Federal Public Defender
Federal Public Defender for the
Western District of Washington
1331 Broadway, Suite 400
Tacoma, Washington 98402
Phone: 253.593.6710
Email: john_carpenter@fd.org
Washington Bar No.: 23301

Counsel for Petitioner
Dated: December 8, 2020

9

